MANDELBAUM, FITZSIMMONS, HEWITT & CAIN, P.A.
ATTORNEYS AT LAW
JOHN N. CAIN, Jr.
KEVIN J. FITZSIMMONS *
SCOTT K. HEWITT
BENJAMIN S. STRANZL
SAMUEL R. MANDELBAUM, LL.M.**

_______

Telephone (813) 221-0200

2111 SWANN AVENUE ■ SUITE 200
TAMPA, FLORIDA

Fax (813) 221-8558

_______

STEPHEN A. SPAID
NICOLAS E. FERREIRO

MAILING ADDRESS –

MICHAEL R. RAINEY
JOHN ARNETT

P.O. BOX 3373
TAMPA, FLORIDA 33601-3373

CHARLENE RAMUS-JAFFE

______
*

Orlando Office Address –
2499 OLD LAKE MARY RD. #142
SANFORD, FL 32771

Website -

www.ManFitzLaw.com

FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LITIGATOR

** ADMITTED FL & NY BARS;
FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LAWYER
FLORIDA BAR BOARD CERTIFIED INTERNATIONAL LAWYER

February 25, 2021

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543

RE:

Application for Extension to File Brief in Opposition (Unopposed)
Huong L. Tran v. City of Holmes Beach et al;
Supreme Court Case no. SC # 20-881
Eleventh Circuit Appeal no. 19-13470
U.S. District Court no. 8:19-cv-534 (M.D.Fla.)

Dear Mr. Harris:
This law firm has previously noted our appearance in the above case as attorneys for Respondents
Florida Department of Environmental Protection (FDEP) and its Department Officials. FDEP is
a State of Florida government agency. Previously we had moved for a 30-day extension to file the
FDEP’s brief in opposition, which was granted without opposition through March 5, 2021.
Pursuant to this Court’s Rule 30.4, Respondents FDEP and its Department Officials, by and
through undersigned counsel, would hereby respectfully request a second extension of time for 14
days, up to and including March 19, 2021, to file their brief in opposition to the Petition for Writ
of Certiorari (“Petition”). As grounds for the extension, Respondents would state:
1. Subsequent to the filing of the Respondent’s initial request for an extension, Respondent’s
undersigned counsel learned that the FDEP’s agency counsel has requested that their in-house
agency attorneys participate in the preparation of the brief in opposition, and be provided with a
draft of the proposed brief in advance of filing. With the involvement of agency attorneys—who
are approximately 250 miles to the north in Tallahassee Florida—delays can be anticipated with
the finalization of the brief in opposition.
2. Respondent’s undersigned counsel also has a brief in opposition due just two days before
the present deadline in another case before this Court: Shane Davis v. Mike Carroll et al, Supreme
Court Case no. 20-872.

Scott S. Harris, Clerk
February 25, 2021

- Page 2 -

3. In addition, undersigned counsel is currently handling several appeals in the state appellate
courts of Florida.
4. Further, in early March, Respondent’s counsel also has deadlines for complicated dispositive
motions and other pleadings in the U.S. District Court for the Middle District of Florida.
5. A proper brief in opposition to Petitioner’s lengthy and detailed petition will take
considerable time and effort. In light of the other briefs and complicated motions due within the
same approximate time period the brief in opposition is due, good cause exists for a 14-day
extension of time.
6. Undersigned counsel has communicated with the pro se Petitioner, Huong L. Tran, who has
indicated that Petitioners have no opposition to this 14-day extension of time requested by the
Florida Department of Environmental Protection and its Department Officials.
For the reasons stated herein, Respondents respectfully request that the time to file their Response
to the Petition in this case be extended by 14 days, up to and including March 19, 2021.
Respectfully Submitted,

_/s/ Samuel R. Mandelbaum, Esq._
Samuel Robert Mandelbaum, Esq.,
Member of this Court’s Bar
Florida Bar Number 270806
srm@manfitzlaw.com
Mandelbaum Fitzsimmons Hewitt & Cain, P.A.
Post Office Box 3373
Tampa, Florida 33601
Office: (813) 221-0200 ext. 105
Mobile: (813) 505-1322
Counsel for Respondents FDEP and its Department
Officials
cc:

Huong L. Tran, Petitioner pro se
103 29th Street
Holmes Beach, FL 34217

Jay Daigneault, Esq.
Trask Daigneault, LLP
1001 S. Fort Harrison Ave., Ste 201
Clearwater, FL 33756-3941
(Counsel for City of Holmes Beach, FL)

